BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that I unbound and
40 copies of the foregoing Brief in Opposition in 19609, Erin Shepherd and Terry Reed v. Angela
Studdard, were sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent Next Day
Service and e-mail to the following parties listed
below, this 12th day of December, 2019:
John Marshall Jones
E. Lee Whitwell
Shelby County Attorney's Office
160 North Main, Suite 950
Memphis, Tennessee 38103
johnm.jones@shelbycountytn.gov
lee.whitwell@shelbycountytn.gov
(901) 222-2100

Counsel for Petitioners
Daniel A. Seward
Counsel of Record
Seward Law Firm
4510 Chickasaw Road
Memphis, TN 38117
(901) 527-5500
sewardlawfirm@aol.com

Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 12, 2019.

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive
Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public
[seal]

JUI.IE ANNE KERSHl~ER
Noury Public, State of Ohio
My C,rnrnission Expires
February 21, 2023

